           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  ADMINISTRATIVE COSTS CLAIMED BY
     THE MISSISSIPPI DISABILITY
      DETERMINATION SERVICES


    September 2012   A-08-12-11294




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   September 14, 2012                                                        Refer To:

To:     Michael W. Grochowski
        Regional Commissioner
         Atlanta

From:   Inspector General

Subject: Administrative Costs Claimed by the Mississippi Disability Determination Services
        (A-08-12-11294)


        OBJECTIVE
        Our objectives were to (1) evaluate the Mississippi Disability Determination Services’
        (MS-DDS) internal controls over the accounting and reporting of administrative costs;
        (2) determine whether costs MS-DDS claimed for Federal Fiscal Years (FFY) 2010 and
        2011 were allowable and funds were properly drawn; and (3) assess, on a limited basis,
        the general security controls environment.

        BACKGROUND

        Disability determination services (DDS) in each State or other responsible jurisdiction
        perform disability determinations under the Social Security Administration’s (SSA)
        Disability Insurance and Supplemental Security Income programs according to Federal
        law and regulations. 1 Each DDS is responsible for determining claimants’ disabilities
        and ensuring adequate evidence is available to support its determinations.

        To make proper disability determinations, SSA authorizes each DDS to purchase
        medical examinations, X rays, and laboratory tests on a consultative basis to
        supplement evidence obtained from the claimants’ physicians or other treating sources. 2




        1
         Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; 20 C.F.R. §§ 404.1601, et. seq., and
        416.1001, et. seq.
        2
            SSA, POMS, DI 39545.120.A. (April 20, 2007).
Page 2 - Michael W. Grochowski


SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization for costs reported on a State Agency Report of Obligations for
SSA Disability Programs (Form SSA-4513). 3

The Mississippi Department of Rehabilitation Services is MS-DDS’ parent agency and
provides MS-DDS with financial, accounting, and personnel services. MS-DDS, located
in Madison, Mississippi, claimed annual costs of over $31 million in FFYs 2010 and
2011. For additional background and our audit scope and methodology, see
Appendix B.

RESULTS OF REVIEW
MS-DDS’ controls over the accounting and reporting of administrative costs for
FFYs 2010 and 2011 were effective to ensure costs claimed were allowable and funds
were properly drawn. In addition, cumulative draw downs did not exceed cumulative
disbursements during our audit period. (See Appendix C for costs reported on Forms
SSA-4513.) Finally, our limited review of MS-DDS’ security controls environment
showed controls were generally adequate. However, we identified some areas where
MS-DDS’ controls did not protect claimant data and office facilities.

GENERAL SECURITY CONTROLS

SSA policy requires that DDSs adequately safeguard claimant/program information and
facilities that DDS personnel use. Although our limited review of MS-DDS’ general
security controls environment showed the controls were generally effective, we
identified the following areas where we believe MS-DDS did not adequately protect
claimant data and office facilities.

SSA policy states DDSs should secure claimant records and folders to avoid
unauthorized disclosures when contractors clean offices outside of normal business
hours. MS-DDS’ contracted service cleaned offices during non-business hours.
Although MS-DDS had a guard on duty during non-business hours, the guard did not
routinely accompany cleaning service personnel throughout the building. In addition,
although MS-DDS had a clean desk policy and staff completed most work electronically,
not all workstations were equipped with lockable file cabinets. As such, we believe SSA
should instruct MS-DDS to require that its contracted service clean offices during
business hours or ensure staff properly secures claimant information from unauthorized
personnel if cleaned during non-business hours.

In addition, we determined there were water pipes above MS-DDS’ computer room.
However, the computer room did not have an environmental control system to detect
water leaks, as required by SSA, POMS. To prevent damage to the computer system



3
 SSA, POMS, DI 39501.020 B. (February 28, 2002), DI 39506.001.B. (March 12, 2002), and
DI 39506.202.A. (March 12, 2002).
Page 3 - Michael W. Grochowski


and possible loss of data, we believe MS-DDS should install a water (leakage) alarm
system along the pipes or take other measures to mitigate the risk of water leaking from
the pipes.

Finally, MS-DDS’ Security Plan did not contain all of the required elements. Part C
(Systems Security Awareness and Training Plan) did not contain ad hoc training
necessitated by changes in systems or a tentative annual security awareness training
schedule. In addition, Part D (Systems Review/Recertification Plan) did not include a
policy on DDS platform security. Furthermore, Part G (Disaster Recovery Plan) did not
contain a roster of primary and alternate personnel who will perform key DDS functions
or a list of the local resources needed to resume full operations if a disaster occurred.
After we discussed the elements that were missing from the Security Plan with MS-DDS
managers, they revised the Security Plan to include all the required elements.

CONCLUSION AND RECOMMENDATIONS
MS-DDS’ internal controls over the accounting and reporting of administrative costs for
FFYs 2010 and 2011 were effective to ensure costs claimed were allowable and funds
were properly drawn. However, MS-DDS’ general security controls and practices did
not always adequately protect office facilities and claimant data.

Accordingly, we recommend that SSA instruct MS-DDS to:

1. Require that its contracted service clean offices during business hours or ensure
   staff properly secures claimant information from unauthorized personnel if cleaned
   during non-business hours.

2. Install a water (leakage) alarm system along the pipes or take other measures to
   mitigate the risk of water leakage from the pipes and damaging the computer
   system.

AGENCY COMMENTS
SSA and MS-DDS agreed with our recommendations. See Appendices D and E,
respectively, for the full text of the comments.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Background, Scope, and Methodology
APPENDIX C – Schedule of Total Costs Reported on the Forms SSA-4513 – State
             Agency Report of Obligations for SSA Disability Programs
APPENDIX D – Agency Comments
APPENDIX E – Mississippi Disability Determination Services Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
Act           Social Security Act
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DI            Disability Insurance
FFY           Federal Fiscal Year
MS-DDS        Mississippi Disability Determination Services
OIG           Office of the Inspector General
OMB           Office of Management and Budget
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSI           Supplemental Security Income
U.S.C.        United States Code


Form
SSA-4513      State Agency Report of Obligations for SSA Disability Programs
                                                                                    Appendix B

Background, Scope, and Methodology
The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), provides benefits to wage earners and their families in the event the wage
earner becomes disabled. 1 The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, provides benefits to financially needy individuals
who are aged, blind, or disabled. 2

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determination services (DDS) in each State, Puerto Rico, Guam, the U.S. Virgin Islands,
and the District of Columbia perform disability determinations under both the DI and SSI
programs. Such determinations are required to be performed in accordance with
Federal law and underlying regulations. 3 In carrying out its obligation, each DDS is
responsible for determining claimants’ disabilities and ensuring adequate evidence is
available to support its determinations. To assist in making proper disability
determinations, SSA authorizes each DDS to purchase medical examinations, X rays,
and laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources. 4

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. 5 The DDS withdraws Federal funds through the
Department of the Treasury’s Automated Standard Application for Payments System to
pay for program expenditures. Funds drawn down must comply with Federal
regulations 6 and intergovernmental agreements entered into by the Department of the
Treasury and States under the Cash Management Improvement Act of 1990. 7 An
advance or reimbursement for costs under the program must comply with Office of
Management and Budget (OMB) Circular A-87, Cost Principles for State, Local, and


1
    Social Security Act §§ 216(i) and 223, 42 U.S.C. §§ 416(i) and 423.
2
    Social Security Act § 1601, et seq., 42 U.S.C. §1381, et seq. See also 20 C.F.R. § 416.110.
3
 Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; 20 C.F.R. §§ 404.1601 et. seq. and
416.1001 et. seq.
4
    SSA, POMS, DI 39545.120.A. (April 20, 2007).
5
    SSA, POMS, DI 39501.020 B. (February 28, 2002) and DI 39506.001.B. (March 12, 2002).
6
    31 C.F.R. Part 205.
7
 Cash Management Improvement Act of 1990, Pub. L. No. 101-453, § 5(b), 104 Stat. 1058, 1059
(Codified at 31 U.S.C. § 6503) (1990).


                                                     B-1
Indian Tribal Governments. 8 At the end of each quarter of the Federal Fiscal Year
(FFY), each DDS submits a State Agency Report of Obligations for SSA Disability
Programs (Form SSA-4513) to account for program disbursements and unliquidated
obligations.

SCOPE

To accomplish our objectives, we reviewed the administrative costs Mississippi
Disability Determination Services (MS-DDS) reported on its Forms SSA-4513 for
FFYs 2010 and 2011. For the periods reviewed, we obtained evidence to evaluate
recorded financial transactions and determine whether they were allowable under
OMB Circular A-87 and appropriate, as defined by SSA’s Program Operations Manual
System.

•     Reviewed applicable Federal laws, regulations, and pertinent parts of SSA’s
      Program Operations Manual System and other instructions pertaining to
      administrative costs claimed by MS-DDS and draw down of the SSA funds.

•     Interviewed staff at the Mississippi Department of Rehabilitation Services and
      MS-DDS.

•     Evaluated and tested internal controls regarding accounting and financial reporting
      and cash management activities.

•     Reconciled State accounting records with the administrative costs reported by
      MS-DDS on Forms SSA-4513 for FFYs 2010 and 2011.

•     Examined the administrative expenditures (Personnel, Medical, and All Other
      Non-personnel costs) incurred and claimed by MS-DDS for FFYs 2010 and 2011 on
      Forms SSA-4513.

•     Examined the indirect costs MS-DDS claimed for FFYs 2010 and 2011 and the
      corresponding Cost Allocation Plans.

•     Compared the amount of SSA funds drawn to support program operations to the
      allowable expenditures reported on Forms SSA-4513.

•     Determined whether MS-DDS excluded the cost of non-SSA work from the costs it
      claimed on Forms SSA-4513 for FFYs 2010 and 2011.

•     Conducted limited general control testing—which encompassed reviewing the
      physical access security in the MS-DDS.



8
    2 C.F.R. Part 225 (August 31, 2005).


                                             B-2
•   Reviewed policies and procedures related to personally identifiable information to
    determine whether the MS-DDS had controls in place to protect these data.

The electronic data used in our audit were sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling them with
the costs claimed on the Forms SSA-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files.

We performed our audit at MS-DDS in Madison, Mississippi, and the Office of Audit in
Birmingham, Alabama, in May and June 2012. We conducted our audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

METHODOLOGY

Our sampling methodology encompassed the four general areas of costs as reported on
Forms SSA-4513: (1) Personnel, (2) Medical, (3) Indirect, and (4) All Other
Non-personnel costs. We obtained computerized cost data from MS-DDS for FFYs
2010 and 2011. We used the computerized data to select a statistical sample for our
control tests.

Personnel Costs

For our control tests, we sampled 50 employee salary items from 1 randomly selected
pay period in FFY 2011. We tested regular and overtime payroll and hours for each
employee selected. We verified that approved time records were maintained and
supported the hours worked. Our control tests determined whether MS-DDS charged
SSA correct payroll costs.

Medical Costs

For our control tests, we sampled 100 medical evidence of record and consultative
examinations (50 items from each FFY) using a proportional random sample. Our
control tests determined whether MS-DDS charged SSA correct medical costs.

Indirect Costs

For our control tests, we reviewed indirect costs for both FFYs 2010 and 2011. We
tested selected indirect cost pools included in the cost allocation plan. Our control tests
determined whether MS-DDS allocated the indirect cost pools in accordance with the
cost allocation plans.




                                            B-3
All Other Non-Personnel Costs

We stratified All Other Non-personnel costs into 11 categories: (1) Occupancy,
(2) Contracted Costs, (3) Electronic Data Processing Maintenance, (4) New EDP
Equipment, (5) Equipment Purchases, (6) Equipment Rental, (7) Communications,
(8) Applicant Travel, (9) DDS Travel, (10) Supplies, and (11) Miscellaneous. For our
control tests, we selected a stratified random sample of 50 items from each FFY based
on the percentage of costs in each category. Our control tests determined whether
MS-DDS correctly charged SSA for All Other Non-personnel costs.

General Security Controls

We conducted limited general security control testing. Specifically, we reviewed the
following eight areas relating to general security controls: (1) Perimeter Security,
(2) Internal Security, (3) Physical Access Controls, (4) Visitor Access Guidelines,
(5) Office Safety, (6) Personally Identifiable Information, (7) Security Plan, and (8) Other
Security Controls. We determined whether the general security controls the MS-DDS
had in place were satisfactory.




                                            B-4
                                                             Appendix C

Schedule of Total Costs Reported on the
Forms SSA-4513 – State Agency Report of
Obligations for SSA Disability Programs

             Mississippi Disability Determination Services
          FEDERAL FISCAL YEARS (FFY) 2010 and 2011 COMBINED
                                              UNLIQUIDATED       TOTAL
      REPORTING ITEMS       DISBURSEMENTS     OBLIGATIONS     OBLIGATIONS
Personnel                      $33,187,085         $7,795      $33,194,880
Medical                         18,846,080       214,187        19,060,267
Indirect                         2,053,184              0        2,053,184
All Other                        8,451,500         59,809        8,511,309
                   TOTALS      $62,537,849      $281,791       $62,819,640
                                   FFY 2010
                                              UNLIQUIDATED       TOTAL
      REPORTING ITEMS       DISBURSEMENTS     OBLIGATIONS     OBLIGATIONS
Personnel                      $16,240,458             $0      $16,240,458
Medical                          9,205,010         37,644        9,242,654
Indirect                           984,493              0          984,493
All Other                       $4,704,472         10,490        4,714,962
                   TOTALS      $31,134,433       $48,134       $31,182,567
                                   FFY 2011
                                              UNLIQUIDATED       TOTAL
      REPORTING ITEMS       DISBURSEMENTS     OBLIGATIONS     OBLIGATIONS
Personnel                      $16,946,627         $7,795      $16,954,422
Medical                          9,641,070       176,543         9,817,613
Indirect                         1,068,691              0        1,068,691
All Other                        3,747,028         49,319        3,796,347
                   TOTALS      $31,403,416      $233,657       $31,637,073
                                                                    Appendix D

Agency Comments

                               SOCIAL SECURITY
MEMORANDUM

Date:        August 30, 2012                             Refer To: EHB 31417
                                                         Atlanta Regional Office
To:          Inspector General

From:        Regional Commissioner
             Atlanta

Subject:     Signed Draft Report of Administrative Costs Claimed by Mississippi
             Disability Determination Services (A-08-12-11294) – REPLY


Thank you for the opportunity to comment on the Mississippi Disability Determination
Services (DDS) draft audit report. We agree with both recommendations in the report
concerning the review of general security controls.

Regarding the first recommendation to have cleaning conducted during business hours
or ensure that claimant information is secured. The DDS expects contracted cleaning
services to be performed during non-business hours and will therefore ensure that all
employees who handle claimant information have locked file cabinets and secured
claimant information in those cabinets during non-business hours. We expect that
these actions will be completed within 30 days.

The second recommendation involving protecting computer equipment from possible
water leakage from pipes above the computer room has been corrected. The building
housing the DDS is undergoing major renovation, and as part of the work the
contractors have already re-routed the water pipes from above the computer room
alleviating the threat of possible water damage to the computer systems.

Questions can be directed to Eleanor Barrineau, Mississippi Disability Program
Administrator, at (404) 562-1417.


                                    Amy Roberts for
                                 Michael W. Grochowski
                                      Appendix E

Mississippi Disability Determination Services
Comments
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director

   Jeff Pounds, Audit Manager

Acknowledgments

In addition to those named above:

   Hollie Calhoun, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-08-12-11294.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
